         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report
Management Controls Over
Administration of the WERC
Project




OAS-M-04-03                            May 2004
REPORT ON MANAGEMENT CONTROLS OVER
ADMINISTRATION OF THE WERC PROJECT




TABLE OF
CONTENTS



             WERC Activities and Expenditures


             Details of Finding .................................................................... 1

             Recommendations and Comments ..................................... 5


             Appendices


             1. Management Comments ................................................. 7

             2. Objective, Scope, and Methodology ............................. 9

             3. Prior Reports ...................................................................11
WERC ACTIVITIES AND EXPENDITURES

Completion of        We found that WERC (A Consortium for Environmental
Planned Activities   Education and Technology Development) was not executing
                     all the planned activities set forth in its annual budget proposals.
                     For example, WERC:

                      •   Awarded only $31,000 of the $130,000 in proposed
                          fellowships at New Mexico State University (NMSU) during
                          Fiscal Years (FY) 2002 and 2003. These fellowships were
                          intended to provide a support program to students pursuing
                          degree programs at WERC institutions and create an
                          infrastructure to develop future environmental scientists,
                          engineers, and policy makers.

                      •   Funded less than 50 percent (8 of 18) of research projects
                          proposed during the past 2 fiscal years. The majority of these
                          research projects were to address Departmental site needs
                          and to develop technologies to address critical national
                          environmental issues.

                      •   Did not execute approximately $3.7 of the $7.5 million that
                          the Department of Energy (Department) had made available
                          to the project since 2001. WERC personnel stated that they
                          had not established internal plans to expend these funds
                          because funding was irregular and they were concerned about
                          over-committing funds. Furthermore, the WERC Executive
                          Director told us that he intended to use funds remaining after
                          the agreement expires to continue operations and execute an
                          orderly closeout.

WERC Expenditures    Our review of 9 NMSU invoices identified over $193,000 out
                     of approximately $2 million (9.7 percent) in questionable
                     expenditures for meals, travel, and costs that were not properly
                     supported. These expenditures included:

                      •   $148,353 for meals that were not set forth in the budget
                          proposals and had not been approved as required by the
                          Department;

                      •   $2,324 of questionable travel costs;




Page 1                                                              Details of Finding
              •   $2,055 that was not in the annual budget proposal for 10
                  copies of a book that the Executive Director revised and
                  received royalties from;

              •   $10,163 for miscellaneous expenditures, such as airfare and
                  professional services, which should not have been allocated
                  to the Department because these costs were not set forth in
                  the budget proposals; and,

              •   $30,780 for various expenditures that WERC could not
                  adequately explain despite repeated requests for such
                  information.

             We also questioned the appropriateness of WERC directly
             charging indirect labor for administrative personnel to the
             Department rather than allocating these costs to its various
             projects. For example, WERC's receptionist is charged
             100 percent to the Department but the employee also works on
             projects funded by other sources. Additionally, the Department is
             charged for all general support costs related to design contests in
             spite of the fact that other entities also sponsor and fund the
             contests. The WERC Executive Director told us that he believes it
             is appropriate to charge these costs to the Department because
             WERC, including the design contests, would not exist without
             funding from the Department. We were unable to specifically
             quantify the proper allocation of the administrative and design
             contest costs to the Department because documentation provided to
             us by NMSU was insufficient.


PROJECT      Although the cooperative agreement required the Department's
MANAGEMENT   substantial involvement, we found that Environmental
CONTROLS     Restoration Division (ERD) officials were not always aware
             of WERC activities and accepted planning, budgetary, and
             expenditure data that lacked the detail needed for monitoring. We
             also observed other project control concerns that impacted the
             ability of the project manager to provide effective oversight of the
             agreement.




Page 2                                                     Details of Finding
                          Substantial Involvement

         Based on our inquiry, we learned that the project officer had only
         limited information regarding WERC's specific activities. The
         project officer was not aware that WERC personnel attended a
         number of conferences and shareholders meetings and was not
         informed of at least one course that was developed. Compounding
         this lack of involvement, the project officer was not clearly
         responsible for overall monitoring and direction of the project. For
         example, other Department officials provided guidance to WERC
         without notifying the project officer. In several instances, the
         project officer's supervisor also overrode her decision to withhold
         payments because of insufficient documentation supporting WERC
         requests for reimbursement.

                               Budgetary Data

         ERD accepted WERC's annual budget proposals even though they
         lacked the detail necessary to effectively monitor the project.
         These proposals were supposed to include planned activities and
         costs for the upcoming year and were designed to be the
         Department's primary control instrument over the project. ERD
         approved the proposals even though they did not provide details
         regarding specific activities, carryover funds, cost sharing,
         program income, or anticipated funding from other sources.
         Further, ERD did not require that milestones tie back to activities
         outlined in budget proposals or be quantifiable and measurable.
         For example, the FY 2002 proposal had a spring and fall milestone
         for fellowships that simply required WERC to issue fellowships
         but did not stipulate the number to be awarded. Finally, ERD did
         not request that WERC modify proposals to reflect the actual
         funding provided or remove duplication of activities between
         proposals. For example, ERD approved WERC's $3.8 million
         budget proposal for 2001, although only $2.5 million was provided
         to the project. This budget proposal also duplicated activities and
         overlapped the performance period of a proposal approved under
         the previous agreement. Without modified proposals, the project
         officer could not evaluate progress and was unable to determine
         what activities were to be completed or under which proposal the
         efforts were funded. In addition, since 2001 WERC did not
         execute approximately $3.7 of the $7.5 million that the Department
         had made available to the project.




Page 3                                                 Details of Findings
         ERD personnel could not explain which activities were sacrificed
         to allow accumulation of the surplus and had not required WERC
         to provide a plan to utilize those funds.

                                Expenditure Data

         ERD did not ensure invoices were sufficiently detailed to
         determine whether WERC's costs were allowable and used in a
         manner consistent with annual budget proposals. Under the
         previous agreement, WERC did not provide any details of the
         amount requested for reimbursement. Under the current
         agreement, WERC is required to provide the dollars expended
         within eight general categories, such as personnel, subcontracts,
         and equipment. Although this was a step forward, this limited
         detail did not allow the actual costs to be compared to the budgeted
         amounts for each activity because the proposals did not align with
         the eight general categories.

         In addition, NMSU did not provide the Department with additional
         support for WERC invoices despite numerous requests by the
         project officer. While at NMSU, we found that WERC had, in
         fact, established accounts to track funds and account for
         expenditures by activity similar to the way it categorized costs in
         its annual budget proposals. However, we were unable to obtain
         an explanation as to why NMSU did not provide this information
         to the Department. WERC personnel and NMSU's accounting
         personnel cited the lack of communication with the Department as
         the reason that the information was not supplied.

                      Other Project Control Weaknesses

         During our review, we identified other issues that had an impact on
         ERD's project controls:

         •   Accomplishments were not consistently or clearly reported.
             For example, the milestone completion percentage stipulated
             in the annual summary reports did not always tie to the level
             of completion disclosed in the quarterly reports. Furthermore,
             WERC's Annual Report submitted to the Department
             disclosed achievements of all portions of the WERC project
             and did not specify the accomplishments funded by the
             Department. Therefore, determining whether WERC
             completed planned activities, the level of completion related
             to these activities, and the funding source of the activities was
             not possible; and




Page 4                                                  Details of Findings
                   •   At the time of our visit, ERD had received only three of seven
                       required quarterly reports from WERC, each of which were
                       significantly overdue and, as a consequence, were not
                       valuable for actively overseeing the project.


PROJECT           By not adequately managing its financial assistance, the
ACCOMPLISHMENTS   Department could not ensure that WERC was meeting its stated
                  goals and spending funds in accordance with its budget proposals.
                  For example, the large funding surplus indicates that WERC had
                  not executed its budget properly and, as a result, may not have
                  fully achieved the intended goals of the project. On the other hand,
                  WERC's claims of success may also indicate that the project has
                  been provided with more funding than it needs to conduct its
                  operations. While management has stated that the WERC Program
                  has provided numerous benefits to the public, program officials
                  lacked full details necessary to demonstrate that project provided
                  benefits commensurate with the $56 million in Departmental
                  funding provided.


RECOMMENDATIONS   To ensure Federal funds are used to fully satisfy project objectives
                  and to avoid questionable costs, we recommend that the Associate
                  Administrator for Management and Administration, NNSA,
                  strengthen the controls over the WERC cooperative agreement by:

                  1.   Establishing clear roles and responsibilities for providing
                       oversight and technical direction;

                  2.   Ensuring that the invoice support aligns with the cost
                       information set forth in budget proposals;

                  3.   Tracking and evaluating deliverables to ensure that they
                       measure against milestones set forth in the annual budget
                       proposals; and,

                  4.   Ensuring the annual budget proposals are sufficiently detailed
                       to allow effective monitoring of the project.


MANAGEMENT        Management concurred with the report and the corresponding
REACTION          recommendations and indicated that they are in the process of




Page 5                                    Recommendations and Comments
                   implementing controls designed to address the issues highlighted
                   in this report. Management stated that it would be discussing the
                   dollar amounts questioned in the report with WERC and NMSU
                   staff. Management pointed out that the level of awards made by
                   WERC is dictated by the availability of qualified candidates, and
                   indicated that in the future WERC will be required to identify other
                   priority activities that available funds can be applied to upon
                   approval.


AUDITOR COMMENTS   Management comments were responsive to our recommendations
                   and are included in the ir entirety in Appendix 1. Based on the
                   management's comments, we made several technical changes to
                   the Report Memorandum and the body of the report.




Page 6                                                              Comments
Appendix 1




Page 7       Management Comments
Appendix 1




Page 8       Management Comments
Appendix 2

OBJECTIVE     To determine whether the Department was adequately managing
              its financial assistance to the WERC project.


SCOPE         The audit was performed from August 2003 through March 2004,
              at Headquarters in Washington, DC and Germantown, Maryland,
              the National Nuclear Security Administration Service Center in
              Albuquerque, New Mexico, and New Mexico State University
              (NMSU) in Las Cruces, New Mexico.

              We limited our scope to include a review of NMSU's invoices for
              the WERC project, dated February 2000 through April 2003. Of
              the 40 invoices comprising this universe, totaling $7,640,095, we
              chose to sample 9 invoices, totaling $2,960,383 (39 percent). We
              further limited our review by excluding $1,107,112 of the costs
              claimed by other consortium members that were embedded in our
              selected sample (the University of New Mexico, New Mexico
              Institute of Mining and Technology, and Dine Community
              College).


METHODOLOGY   We held discussions with Headquarters officials from the Office of
              Environmental Management and the Office of Management,
              Budget and Evaluation/Chief Financial Officer to gain an
              understanding of the funding process involved with
              congressionally directed projects and to gain knowledge regarding
              the WERC project. In particular, we:

              •   Held discussions with ERD officials to determine their role in
                  the management and administration of the WERC project and
                  to determine if any areas of concern existed;

              •   Held discussions with NMSU personnel to determine the
                  university's role in the management and administration of the
                  project, as well as to determine what controls the university
                  has over the project; and,

              •   Reviewed judgmentally selected NMSU WERC invoices
                  dated from February 2000 through April 2003 to determine if
                  the funds were being used for their intended purpose(s).

              This audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the audit objective.



Page 9                               Objective, Scope, and Methodology
Appendix 2

             Because our review was limited, it would not necessarily have
             disclosed all internal control deficiencies that may have existed at
             the time of our audit. Since computer processed data was not the
             primary support used to meet our audit objective, we performed a
             limited assessment of data reliability. We assessed the
             Department's compliance with the Government Performance and
             Results Act of 1993. However, the Department's Annual
             Performance Plan for Fiscal Year 2003 did not include specific
             performance data pertaining to congressionally directed projects
             nor, more specifically, to the WERC project.

             Management waived the exit conference.




Page 10                             Objective, Scope, and Methodology
Appendix 3

                                      PRIOR REPORTS

  •   The McNeil Biomass Project (DOE/IG-0630, December 2003). The Department was
      congressionally directed to award, through a cooperative agreement, financial assistance
      to the McNeil Biomass Project to help it achieve its goal of demonstrating commercial-
      scale bio mass gasification. In Fiscal Year (FY) 2002, the Department dedicated
      $3 million to the project to aid the recipient in accomplishing several objectives related to
      improving the gasification process. This audit revealed that the Department continued to
      provide funds to the McNeil Biomass Project even though there was little or no progress
      toward meeting FY 2002 objectives. This occurred because the Department did not
      devote adequate attention to establishing project objectives and did not closely monitor
      the project. As a result, the Department had little to no assurance that the $2 million
      spent on the project in FY 2002 was of any benefit to the Department or to the scientific
      community at large.

  •   Grant Administration at the Oakland Operations Office (WR-B-02-02, January 2002).
      The Department issues science and technology (S&T) grants to advance scientific
      research in fields important to the Department. Grantees are to document the scientific
      and technical information that results from their work in technical reports, and provide
      the reports to the Department for dissemination to the scientific community and the
      general public by the Office of Scientific and Technical Information (OSTI). During FYs
      1998 through 2000, Oakland administered about 1,953 S&T grants totaling
      approximately $1.84 billion which required S&T reports. We estimated that some of the
      technical reports for about 1,237 of these grants were not sent to OSTI. This occurred
      because Oakland lacked procedures for tracking the collection of reports and forwarding
      the reports to OSTI.

  •   Albuquerque Operations Office's Grant Administration (DOE/IG-0524, September
      2001). The Albuquerque Operations Office administered grants with a total value of
      $509 million. A Federal Assistance Reporting Checklist, which identifies the reporting
      requirement and frequency of required reports for each project, is included as part of each
      grant. The review by the Department of these deliverables is an important and necessary
      part of the grant administration process. This audit disclosed that Albuquerque was not
      receiving many of the deliverables specified in its grants. As of May 2001, Albuquerque
      had not received final deliverables for 11 of the 28 completed grants included in our
      review. Albuquerque had no formal procedures to identify when deliverables were due,
      thus negatively affecting its ability to initiate follow-up actions.




Page 11                                                                          Prior Reports
Appendix 3


  •   Financial Assistance for Biomass-to-Ethanol Projects (DOE/IG-0513, July 2001). The
      Department was required to award, through congressional direction, financial assistance
      to two firms whose goal was to construct a full- scale biomass production facility by the
      year 2000. This audit revealed that the Department had not met is programmatic goal of
      having a full-scale commercial biomass production facility built by 2000. In fact,
      construction of the two facilities had not even started as of the completion of this audit.
      Despite assertions by the two recipients that their technologies were proven and ready for
      commercial application, both companies had not fulfilled the representations contained in
      their proposals or the terms of their financial assistance agreements. As of the date of
      this audit, the Department had spent nearly $15 million on these projects and there was
      no biomass facility on the horizon. Management asserted that because of the
      congressional "earmark" it could not apply certain project management principles to these
      projects. Management further asserted that, because of the appropriations action, its
      latitude in managing these projects was severely limited.




Page 12                                                                        Prior Reports
                                                                    IG Report No.: OAS-M-04-03

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact yo u should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
